No.

IN THE
SUPREME COURT OF THE UNITED STATES

RONALD DEMETRIUS THOMAS

i___ —PETITIONER

(Your Name)

VS.

WILLIAM MUNITZ, Warden.
— RESPONDENT(S)
.

PROOF OF SERVICE

I, Ronald Demetrius Thomas
, do swear or declare that on this date,
July 1 2
, 20_20., as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
.or that party’s counsel, and on every.other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a- third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Solicitor General of the United States, Room 5614y Department of Justice, 950
Pennsylvania Avenue, N.W., Washington, D,C. 20530-0001.

I declare under penalty of perjury that the foregoing is true and correct. 28 U.S.C. § 1746
Executed on

iX

,20,20

